APPENDIX A
- Fla

2nd

DCA PER CURIAM Affirmed Opinion filed on May 20, 2020.

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED
IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT

LEROY E. SCOTT and LINDA J. SCOTT, )
)
Appellants,
)
)
)
v. .
)
CITY OF ST. PETERSBURG, a political
)
subdivision of the State of Florida; and
)
ALLIANCE MORTGAGE COMPANY,
)
)
Appellees.
)
)
Opinion filed May 20, 2020.
Appeal from the Circuit Court for Pinellas
County; Thomas M. Ramsberger, Judge.
Leroy E. Scott and Linda J. Scott, pro se.
Bradley S. Tennant, Assistant City Attorney,
St. Petersburg, for Appellee City of St.
Petersburg.
No appearance for Appellee Alliance
Mortgage Company.

PER CURIAM.

Affirmed.

KELLY, BLACK, and SLEET, JJ., Concur.

Case No. 2D19-2758

APPENDIX B

- Fla 2nd DCA Order denying Appellants' Motion for Issuance of a Written Opinion,
Rehearing or in the alternative, Rehearing en bane enter on July 29, 2020.

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327
July 29, 2020

CASE NO.: 2D19-2758
L.T. No.: 2018CA005043XXCICI
LEROY SCOTT AND LINDA J. SCOTT v.
Appellant / Petitioner(s),

CITY OF ST. PETERSBURG
Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellants' motion for issuance of a written opinion, rehearing or in the
alternative, rehearing en banc is denied.

I HEREBY CERTIFY that the foregoing is a true copy of the original court order.

Served:
BRADLEY S. TENNANT, ESQ.
LEROY SCOTT
KEN BURKE, CLERK
mep

Mari" Elizabeth Kuenzel
Clerk

MATTHEW D. WEIDNER, ESQ.
LINDA J. SCOTT

64.

APPENDIX C
- Summons, Notice of Lis Pendens, and Complaint filed in Florida 6th Judicial
Circuit Court, Civil Division on August 1, 2018.

Filing # 75807301 E-Filed 08/01 /2018 10;38:01. AM

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CITY OF ST. PETERSBURG, a political subdivision
of the State of Florida,
Plaintiff

CASE NO.:

V.
LEROY E. SCOTT; LINDA J. SCOTT; and ALLIANCE MORTGAGE COMPANY,
Defendants.

SUMMONS

/)Stg fly ED r.1 t
DATE

THE STATE OF FLORIDA

rrir

TIME aa'4"//

4-1—

••••1111011/011111

WAYNE Z. POLL1CK
C.P.S. #856 P.B.C.

To All and Singular the Sheriffs of the State:
YOU ARE COMMANDED to serve this summons and a copy of the complaint and
attachments to the Defendant
LINDA J. SCOTT
Each defendant is required to serve written defense to the complaint or petition on /
plaintiffs attorney, to wit: MATTHEW D. WEIDNER, ESQUIRE, whose address is 250
Mirror Lake Drive North, St. Petersburg, Florida 33701 WITHIN 20 DAYS AFTER
SERVICE OF THIS SUMMONS ON THAT DEFENDANT, exclusive of the day of service, and
to file the original of the defenses with the Clerk of this Court either before service on Plaintiffs
attorney or immediately thereafter. IF A DEFENDANT FAILS TO DO SO, A DEFAULT
WILL BE ENTERED AGAINST THAT DEFENDANT FOR THE RELIEF DEMANDED IN
THE COMPLAINT OR PETITION.
WITNESS my hand and seal of this Court on AUG 01 2018

, 2018.

Clerk of the Circuit Court
By: 44h4/449„410%Aull—
As Deputy - erk
KEN BURKE CLERK CIRCUIT COURT

315 Court Street
Clearwater, Pinellas County, FL 33756-5165

0/1_,/ CIA) 4.'1
***UT 121^11D !WV' AVIV FIT VT1 114/Ili MI 111.142.M

Ala. V1PlkaT

TIT TIT V= f'T row-

raz TUG MD WT ("VII TDP TIMM T T AC r`fllTATT'V***

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CITY OF ST. PETERSBURG, a political subdivision
of the State of Florida,
Plaintiff,

CASE NO.:

v.
LEROY E. SCOTT; LINDA 3. SCOTT; and ALLIANCE MORTGAGE COMPANY,
Defendants.
NOTICE OF LIS PENI)ENS
TO THE DEFENDANTS AND ALL OTHER WHOM IT MAY CONCERN
YOU ARE HEREBY NO1IF TED of the institution of this action by Plaintiff against you
involving title to the following properties in Pinellas County, Florida:
Lot 13, Annhurst Subn, according to the map or plat thereof as recorded in Plat
Book 22, Page 68, Public Records of Pinellas County, Florida.
PARCEL ID # 36-31-16-01152-000-0130
Commonly referred to as 2703 18TH ST S, ST. PETERSBURG, FL
THE NATURE OF THE ACTION IS A COMPLAINT TO FORECLOSE MUNICIPAL
LIENS IMPOSED AGAINST THE PROPERTY AND OWNED BY THE CITY OF ST.
PETERSBURG.
Dated: August 1, 2018
Weidner Law, P.A.
Counsel for Plaintiff
250 Mirror Lake Dr., N.
St. Petersburg, FL 33701
Telephone: (727) 954-8752
Designated Email for Service:
service@mattweidnerlaw.com
By: s/ Matthew D. Weidner
Matthew D. Weidner, Esq.
Florida Bar No. 185957

IN THE CIRCUIT COURT OF TAE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CITY OF ST. PETERSBURG, a political subdivision
of the State of Florida,
Plaintiff,

CASE NO.:

v.
LEROY E. SCOTT; LINDA J. SCOTT; and ALLIANCE MORTGAGE COMPANY,
Defendants.
PLAINTIFF'S COMPLAINT
Plaintiff CITY OF ST. PETERSBURG, a political subdivision of the State of Florida
("Plaintiff"), by and through undersigned counsel, sues LEROY E. SCOTT ("Leroy"); LINDA J.
SCOTT ("Linda"); and ALLIANCE MORTGAGE COMPANY ("the Bank") and alleges as
follows:
INTRODUCTION
Leroy and Linda own and possess the following described non-homestead real property:
Lot 13, Annhurst Subn, according to the map or plat thereof as recorded in Plat
Book 22, Page 68, Public Records of Pinellas County, Florida.
PARCEL ID # 36-31-16-01152-000-0130
Commonly referred to as 2703 18TH ST S, ST. PETERSBURG, FL
("the Property").
The failure to maintain the Property has eroded the Property's condition and, more
importantly, has led to the imposition of multiple municipal liens.
NATURE OF CLAIM, JURISDICTION, AND VENUE
This is an action to foreclose all liens owned and held by the City of St. Petersburg.
This Court has subject-matter jurisdiction over this action pursuant to Fla. Stat. §26.012.

Venue is proper because the real property is located in Pinellas County and because the
events complained of occurred in Pinellas County.
COUNT I
Foreclosure of Municipal Liens Imposed Against the Property
Plaintiff re-incorporates and re-alleges paragraphs 1-5 as if fully stated herein.
This is an action in equity to foreclose municipal liens imposed against the Property.
Plaintiff is the owner and holder of the municipal assessment liens imposed against the
Property.
The municipal liens are recorded in the Official Records of Pinellas County at the
following Book and Page numbers:
O.R. Book 9359, Page 330, O.R. Book 9391, Page 56, O.R. Book 11032,
Page 2628, O.R. Book 12202, Page 1038, O.R. Book 12251, Page 600, O.R.
Book 12309, Page 124, O.R. Book 12497, Page 1088; O.R. Book 10934,
Page 2096; O.R. Book 13491, Page 2466; O.R. Book 15611, Page 2638;
O.R. Book 16794, Page 2536; O.R. Book 16869, Page 2525; O.R. Book
17132, Page 924; O.R. Book 17422, Page 1919; O.R. Book 17575, Page
1065; O.R. Book 17806, Page 930; O.R. Book 18294, Page 2618; O.R. Book
18549, Page 437; O.R. Book 18602, Page. 873; O.R. Book 18733, Page 2130;
O.R. Book 18861, Page 1229; O.R. Book 19000, Page 963; O.R. Book
19045, Page 2281; O.R. Book 19063, Page 2676; O.R. Book 19323, Page
757; O.R. Book 19541, Page 1479; O.R. Book 19900, Page 1683; O.R. Book
19963, Page 443; O.R. Book 19996, Page 1603 and O.R. Book 20037, Page
493.
Principal and interest balance are due on the municipal liens imposed against the
Property, plus attorney's fees, late charges, costs, and title search expenses.
The Property is not, nor can it be, homestead property and therefore the protections
afforded under Article X, Section 4 of the Florida Constitution do not apply.
There have been no payments on any of the municipal liens.

Plaintiff has also complied with all conditions precedent to the filing of this lawsuit or
those conditions have otherwise been waived.
The Bank may claim an interest in the Property pursuant to a mortgage recorded in the
Official Records of Pinellas County, Florida at Book 4198, Page 434 and assigned to it by
assignment recorded at O.R. Book 5660, Page 110, but said interest is inferior and subject to
Plaintiffs municipal liens because the statute of repose has run on the mortgage.
Plaintiff is obligated to pay Weidner Law, P.A. a reasonable attorney's fee for the
services rendered in this lawsuit and is entitled to recover these fees and all other court costs it
incurs.
WHEREFORE, Plaintiff requests that the Court:
Adjudge that Plaintiff has liens on the Property and that all defendants named herein
be foreclosed;
Order an accounting to be taken under its direction determining what sums are due
and owing to Plaintiff for the principal and interest on the liens herein described and
protecting Plaintiff's liens on the Property;
Enter judgment in Plaintiff's favor in the amount determined by the accounting;
Order that, in default of payment of the judgment, the Property be sold according to
the law and that the proceeds from the sale be paid to Plaintiff to satisfy the judgment;
Order that the proceeds of the foreclosure sale also be used to direct payment of any
unpaid municipals or installments thereof imposed or falling due since the institution
of this lawsuit or, alternatively, order that the foreclosure sale is made subject to such
municipals;

Order that all court costs, including reasonable attorney's fees and any additional
relief that the court deems appropriate, be awarded to Plaintiff; and
Retain jurisdiction to award such other relief as the court may allow, including, the
award of a deficiency against the owner of the Property at the time of the municipal
lien.
Dated: August 1, 2018
Weidner Law, P.A.
Counsel for Plaintiff
250 Mirror Lake Dr., N.
St. Petersburg, FL 33701
Telephone: (727) 954-8752
Designated Email for Service:
service@mattweidnerlaw.com
By: s/ Matthew D. Weidner
Matthew D. Weidner, Esq.
Florida Bar No. 185957

APPENDIX D

- 7 "Code Enforcement Board Fines" liens
- 1 representative "Special Assessments" lien

INST # 96-148804
MAY 31, 1996 4:45PM
ORDER IMPOSING LIEN

PINELLAS COUNTY FLA.
OFF.REC.BK 9359 PG 330
ITEM A_It

STATE OF FLORIDA
COUNTY OF PINELLAS

BEFORE ME, the undersigned authority, personally appeared Samuel,
Highland who, being duly sworn, says:
He is the Chairperson of the Code Enforcement Board of the
City of St. Petersburg, Florida.
brought
In Case(s) 95-21050
before the Board, said Board imposed a fine (penalty) pursuant to its
lawful authority under Chapter 162, F.S. and City Code against
$COTT. LEROYIX.,iii the amount of Siesn.eneN per day.
The Board;h7reby finds that the violation was in existence on:
''e llz:ite-s% i>

By law, the eho, efine (penalty) constitutes a lien upon any
real or personal property owned by SCOTT. LEROY E. and upon the
following described propertrillich according to the public records of
Pinellas County, Florida is owned by SCOTT. LEROY S.:
2703 18TH ST S
ANNIBIRST")
LOT 13

S. This lien is hereby certified& amount of 6,j.

CIMIRPERSON, Cdde Ini* ement Board
SWORN TO AND SUBSCRIBED BEFORE ME TILTS
19Skx.

My Commission Expires:
RETURN THIS INSTRUMENT TO:
112

DAY OF irvs•=1
,

MARGARET E JACOBS
MY COMSSION 4CC323053
Wage 3. Mt
WAIMITMUMN4WONNWINI

Margaret Jacobs, Codes Compliance
P. 0. Box 2842, St. Petersburg, PL 33731

INST # 96-180543
JLY 2, 1996 4:44PM
ORDER IMPOSING LIEN

PINELLAS COUNTY FLA.
OFF.REC.BK 9391 PG 56
tmi 11,41

STA= OF FLORIDA
cowry OP PIMBLLAS

MOAB MB, the undersigned authority, personally appeared
who, being duly sworn, says:

girkland

He is the Chairperson of the Code War:mote= Board of the
City of St. Petersburg, Florida.
brought
In Case(s) 9S-280S0
before the Board, said Board imaged a fine (penalty) pursuant to its
lawful authority' under Chapter 162, F.S. and City Code against
;cm. may i. in` the amount of $10545./5/5 per day.
3. The Boardpiinds thatippeolation was in existence on:
Si /

‘Mai.../.ea? "*"""

4. By law, the ttbove,fine (penalty) constitutes a lien upon any
real or personal propertiloimed by SCOTT. MOT B. and upon the
following described property7„which according to the public records of
Pinellas County, Florida is-o4ned by SCOTT. MOT 8.:
2703 18TH:ST/S
MOMS? 0/
LOT 13

S. This lien is hereby cartified:in the amount of $450444:5 .

CHAIRPIRSON,
::
iof

ff

e B orcement Board

AND SUBSCRIBID WM = IBIS

Ajt_ DAY 09,4/1,

‘
7770.4.9.411219.44440

Notary Stalin

(al.,/

••••••••••.....

we ,
REV ........•.00•••

My Coaniasion Bxpires:

avinsAgrrE.MC088
?If COMMISSION (XSBASEXPIAS
*WOW 3. 11II?
teroeoneu 71101, FAININMIACEAC

RETURN THIS =STRUM? TO: Margaret Jacobs, Codes Compliance
P. O. Box 2842, St. Petersburg, FL 33731

00-262680 AU6-30-2000 12:049ft
PINELLAS CO OK 11032 PG 2628
11, 1111111111111111111111111

ORDER IMPOSING LIEN
ITEM
STATE OP FLORIDA. COUNTY OF FIRELLAS

BEFORE ME, the undersigned authority,
personally appeared JIM BEDINOHAUS who,
being duly sworn, says;
1. S/he is the Chairperson of the
Code Enforcement Board of the
City of St. Petersburg, Florida.
In Casets) 99-26871
brought before the Board, said Board imposed a fine (penalty) pursuant to
its
lawful authority undeF,Chapter 162, F.S. and City Code against
SCOTT. j,ERQX 5 * in'eeimount of $Piii-2,0 per day.
A
The Hoard herey firdc,Athe violation was in existence on:
S*146."00 ro& r"D3 "OD
•
4. By law, the above fine (penalty) constitutes a lien upon any real or
personal property owned by SCOTT' Lew E • and upon the
following described property whichk.aCcprding to the public records of Pinellas
County, Florida is owned by 'COM LEROY 2 * :
!, (7-'\
•\

N4 141111!Ir§ II

c0P-Ocicoi-Cole.9> ....4.4
"19
16471C1!:114
300:3gr
I0
-C'a
ocaa.m
u....
:_ <

a.< 0

ki.

Parcel A 6/31/16/011521000/0130/
2703 18TH ST Sr,
ANNHURST
V ..,
LOT 13
,f,'
row APTS NO. 2 CONDO
sum c, uurr la

Ii- 6 9.
S. This liefiiis hereby certified in the amoun4S!!/0. 4").

<1.5:174)
CHAIRPERSON,

\
J
%.-I
jh
fi

Code forcemeat Board

SWORN TO AND SUBSCRIBED BEFORE RE THIS

..126 DAY OP

, 2000.

My Commission Ea irest
.
.

RETURN THIS INSTRUMENT TO: Margaret Jacobs, Codes Compliance
(142)
P. O. Box 2842, St. Petersburg, FL 33731

I. MARGARET JACOBS. RECORDS CUSTODIAN FOR

THE CITY OF ST.
PETERSBURG. FLORIDA. CODE ENFORCEMENT BOARD, CERTIFY THAT THE
ABOVE AND FOREGOING IS A TRUE AND CORRECT COPY OF THE ORIGINAL
AS IT APPEARS IN THE OFFICIAL ,FILES OF THE CITY OF St PETERSBURG.
FLORIDA. EXECUTED THIS t DAY OF
._
MARGARETJACOSS, CODE ENFORCEMENT BOARD
CUSTODUW
CITY OF ST. PETERSBURG, FLORIDA

a

BY: "Illag*

02-330455 SPT- 5-2002 12:17mi
PINELLAS CO SK 12202 P8 1038

ORDER IMPOSING LIEN
ITEM

#

111111 1111111111111111111

C S

STATE OF FLORIDA, COUNTY OF PINELLAS
///
BEFORE ME,,,,tile undersigned authority,
who
persoAalAy/appeared
being'duly sworn, says:
7/klisc\iL
1. He is theTha xFperson of the
Code Enforcement Board of the
City of St% Peteritburg, 'Florida.

2. In Case(s) l-23Z83

brought beforelthe. Board,\eaid Board imposed a fine (penalty) pursuant to. its
Code against
lawful authoritiunders)ChapteF 162, P.S. and
per day.
,SCOTT. LEROY E. * in the amount_ of
,/,' c \\
3
Th74rat gsx-pi..:findsStialt *thlyolat ion was in existence on:

owl.

i.

11014# Ireba114

6 ".* u dli

4. By law, the above fine (pnalty)_qonstitutes a .lien upon any real or
personal property owned byzSCOTr(LBROXE * and_ upon the
following described property which according to the public records of Pinellas
County, Florida is owned by SCOTT. LEROY1E * :
_
v "
\\
Parcel #`-36/11/26/011S2/000/0130/
2703 18TH"ST S

••

ANNATIRST
LOT 13

S. This lien is hereby certified in the amount,ofi$LOCW.4,4)
•

CHAIRPERSON, Code forcement Bo
DAY OP •

• , 2002.

My Commisaion Exp res:

irse::

MargatetElocobs
MYCOMMISSION# 00059440 WIRES
/ .November1,2005
SOICE0 1110.1 MOY FAIN MANCE. INC

RETURN THIS INSTRUMENT TO: Margaret Jacobs, Codes Complianc
P. 0. Box 2842, St. Petersburg, FL-33731
(242)
I. MARGARET JACOBS, RECORDS CUSTODIAN FOR THE CITY OF ST.
PETERSBURG, FLORIDA, CODE ENFORCEMENT BOARD, CERTIFY THAT THE
ABOVE AND FOREGOING IS A TRUE AND CORRECT COPY OF THE ORIGINAL
AS IT APPEARS IN THE OFFICIAL F ILES OF THE CITY OF S1 PETERSBURG,
FLORIDA. EXECUTED THIS
DAY OF
MARGARET JACOBS, CODE ENFORCEMENT BOARD RE
CUSTODIAN
CITY OF ST. PETERSBURG, FLORIDA

BY:

41\

PAGES
l'ICCT
/ RFC.

g../

- •
. •
•0•00.11•••••

L4:06

ORDER IMPOSING Lam

ITEM # Cd40

02.40032 CO
OCT1.4002 P
8%

111110011
110110

P 141.1.-aS

STATIVOP FLORIDA, COUNTY OP PINELLAS

ZA

,BEFORE MR, the undersigned authority,
i(e prsOAally:appeared JpHN OXLEY who,
being duli sworn, says:

is,the ChOxperson of the
Code Enforcement Board of the
City of1St. Petter6burg, Florida.
In Case(s),'1-23783
brought before the

said Board imposed a fine (penalty) pursuant to its
lawful authority under Chapter 162, P.S. ansiSity Code against
SCOTT. LEROY 'E * in' the amount of Sine ..low per . _

z,.\\

The 132ard herebY-tinde that the violation was in existence on:

aft'o

Tv.

gitz gft

By law, the above fine (pepaity) constitutes a lien upon any real or
personal property owned by,$COTT. LEROY B * and upon the
following described property which-according to the public records of Pinellas

Sat?. LEROY B *
I1
if
Par ce l * 36/31/001141/000/0130/

County, Florida is owned by

2703 iiTH'ST S
ANNHURSII
LOT 13

1 04011#1

.
S. This lien is hereby certified in the amount of,$01044",*(4
Z

SNOWS TO AND SUBSCRIBED BEFORE NE THIS 421 car OF

..si.

, 2002.

1i
My Commislion Expires:
fikoperstElmois
.
MYON64880/4 UMPOODOMM
/Noimmber3,2ME
maretRUTEMMINIURPMDC

i
(
RETURN THIS INSTRUMENT TO: Margaret Jacobs, Codes Complianqe . i) .
(M2)
P. 0. Box 2842, St. Petersburg\ FL 33731 ..,itytai.:3

pc-r:
\571.12i.
I, MARGARET JACOBS, RECORDS CUSTODIAN FOR THE CITY OF ST. ,
PETERSBURG, FLORIDA. CODE ENFORCEMENT BOARD, CERTIFY THAT THE
AROVE AND FOREGOING IS A TRUE AND CORRECT COPY OF THE ORIGINAL
AS IT APPEARS * THE OFr ICI& FILES OF THE CITY OF PETERSBURG,
FLORIDA. EXECUTED THIS 3O DAY OF
CUSTODIAN
MARGARET JACOB% CODE ENFORCEMENT BOARD RE
CITY OF ST. PETERSBURG, FLORIDA
BY:

In 47141112.2d

ORDER IMPOSING LIMN

02-.403120 0CT-244002 9:41INIK
PINELLAS CO SK 12209 PO 124

FAC.r:53

IN NM NMI

I:CC 4700

ITEM # C"' &73
'MATE OF FLORIDA, COUNTY OF

tJfL2 i 3
T
FE 4.)
PATF
Pe
REV ,

PIMILLAS

43EFORE ME, / the undersigned authority,
`E'perstiriallir'ippeared g•OHN OXLEY who,
beihi,duly sworn, says:

TOTAL

He is/the Chairperson of the
Code Enfcrcement;Board of the
City of\St. Petersburg, Florida.

OK 8AL
CHO AMT

In Case(s) 1-23783;\
brought before,the,Board,>said Board imposed a fine (penalty) pursuant to its
lawful authority under Chapter 162, F.S. and City -Code against
SCOTT. LEROY B * in'he,aux;unt of $.111.0./1/1 per day.
Z(
The 11:oard herebyliilds,thapthe violation was in existence on:

.a -0 a tig. 10-623-or
1
/

By law, the above fine (penalty) constitutes a_lien upon any real or
personal property owned by'SCOTTr'LEROY E * and upon the
following described property which according to the public records of Pinellas
County, Florida is owned by SCOTT. LEROY E * ;
Parcel.* 36/11/16/0115a/01219-130/
2703 18TH-ST 8.0t
ANNHURST
LOT 13

This lien is hereby certified in the amount-of $.0e) 300 (1°

#

,a),201 4,e
40 orcement Boa

IRPERSON, Code

SWORN TO AND SUBSCRIBED BEFORE MN TEXO

DAY

OF

7(9

-

, 2002.

i)
((
My Commission Expires:
" -% /"Mar
—iiIetE3acobs
.mvoximWKW*,000W444 BMWS
/ November 42006
NOM DIM AMY VAN OdUktliCE tIG

RETURN THIS INSTRUMENT TO:
(N2)

Margaret Jacobs, Codes CompliancaN,
//
P. 0. Box 2842, St. Petersburg, FL-33731

I, MARGARET JACOBS. RECORDS CUSTODIAN FOR THE CITY OF ST:"
PETERSBURG. FLORIDA. CODE ENFORCEMENT BOARD, CERTIFY THAT T'HE
ABOVE AND FOREGOING IS A TRUE AND CORRECT COPY OF THE ORIGINAL
AS IT APPEARS IN THE OFFICIAL FILES OF THE CITY OF T. PETERSBURG,
FLORIDA. EXECUTED THIS VS Dm,
..
MARGARET JACOBS, CODE ENFORCEMENT BOARD RECORDS CUSTODIAN
CITY OF ST. PETERSBURG, FLORIDA

ORDER IMPOSING LIEN
( Xi

(

ITEM 11.Q-71
.........„ ...",,, 1
STATE OF FLORIDA, COUNTY OF PINELLAS
//)
BEFORE ME, the undersigned authority,
personallya kiried ANTHONY CAPALBO
who, being duly swo-m, says:

03-.033591 JAN.-28-2003 8 :58af

P /NELLR8 CO

I

12487 PG 1088

NEI 111111111111111

)1

((

I. He is the Chairperson of the Code Enforcement Board of the City of St. Petersburg, Florida.
\,—
"A, .
2. In Case(s) 01-00023783 - brougnt before the Board, said Board imposed a fine (penalty) pursuant to its
lawful authority under Chaiiter,162; F.S. and City Code against SCOT. LEj1OY E * in the amount of
$ 106*0° per day. V \>
The Board hereby finds that the violation was in existence on 10'salitenatil

1•4>4),„3

.

By law, the above fine (penalty) constitutes a lien upon any real or personal property owned by

SCOTT. LEROY E * and upon the .foyoWing described property which according to the public records
of Pinellas County, Florida is owned by SCOTT.-LEROY E
O.03tS
NN
//
przT
Parcel # 3f/31L16M1152/000/0130/
HEC
2703 18TH ST S
ANNHURST
LOT 13

DR2i9

FhtS
MIT
Die

_

iii

5. This lien is hereby certified in the amount of $

00 4°, (!
V

- --- • ti5TAL
OK BAL

CHG AMT

,,ag./

ey

CHAIBP=ON, C e Enforcement Board
SWORN TO AND SUBSCRIBED BEFORE ME THIS

DAY. OF

4tAfIl # , 20(13

t

My Commission
"IN rl:razczEdats
m co t ss
en 3

1
November 42005
rtelonaillOYFAINtistala.M.

RETURN THIS

M2

INSTRUMENT TO: Margaret Jacobs, Codes Compliance Assistance Department
P. O. Box 2842, St. Petersburg, FL 33731*-------'
I, MARGARET JACOBS, RECORDS CUSTODIAN FOR THE CITY OF ST.r

PETERSBURG, FLORIDA, CODE ENFORCEMENT BOARD, COMFY THAT THE
ABOVE AND FOREGOING IS A TRUE AND CORRECT COPY OF THE ORIGINAL
AS IT APPEARS IN THE OFFICIAL. a..ES OF THE C
ST. PETERSBURG,
FLORIDA. EXECUTED THIS
DAY OF
MARGARET JACOBS, CODE ENFORCEMENT BOARD ECOADS CUSTOD
CITY OF ST. PETERSBURG, FLORIDA

BY:

....roosted,*

PAGE
ACCT 105.7.
„ 0

THIS INSTRUMENT WAS PREPARED BY
AND RETURN TO:
A
Name:Quitmon,Sinclair, Supervisor
Dept Billing and Collections Special Assessments
City of St. Petoriburg, Florida
P.O. Box 2842 //'
St. Petersburg, FL 33731

DR219—:.
DS
INT tteD
FEES
MTV
REV

.

TOTAL=53°
CK BAL
,.
u 1-094S7S FES- 8-2001 11 :53Fitt
Charge Authorized by: R. Richard Mter, &lector, Rift and Collection COMO
p INELLRS CO SK 11212 PD Mitic?

EIMMINEM1111

SPECIAL ASSESSMENT TYPE: `JaCA 1257

CITY:OF ST. PETERSBURG, FLORIDA
CERTIFICATE OF INDEBTEDNES%
/\\
In accordance with the Cade, Resolutions, and Ordinances of the City of St. Petersburg, Florida
(hereinafter "City"), whose address is* P. 9. Box 2842, St. Petersburg, Florida 33731, the Mayor of said
City hereby issues this Certificate of Indebtedness, for the amount(s) set forth in the attached exhibitis)
numbered 1 to 1.6 against real propftrty located in St. Petersburg, Pinellas County, Florida, as described
In said exhibit(s), which amounts represent assessments against abutting or benefitted property for the
cost of the following improvement, to wit: / LAND 1 CLEARING
. Said assessments were
confirmed by the City Council of the City, remain liens superior in dignity to all other liens, except for
taxes, upon the respective lots and parcels of land assessed; and shall bear interest at the rate of 10%
percent per annum, with a delinquent rate of inteiestofeighteen percent (18%) per annum on the unpaid
balance when any installment is two or more years past due. Failsure to pay any installment of interest or
principal of any assessment when such installment shall • become due, shall, without notice or other
proceedings, cause ail installments of principal remaining Fnpaid to be forthwith due and payable, and the
City or the holder of the Certificate may proceed to enforce the lien of the assessment and certificate as
is provided by law.
1/ /
1
The amounts set forth are payable to the City or its assignee. Any assignment of this Certificate
must appear upon the Certificate itself and also upon the books of the City in order for the assignment to
be legal and binding. This Certificate shall not be, nor shall it be construed to be, an obligation, either
general or special, of the City of S
, Florida, but shall be only an obligation and lien on the
property herein described.
City of St. Petersburg, Florida
Atte
Name:
Title:

e: David
tie: Mayor

STATE OF FLORIDA
COUNTY OF PINELLAS
The foregoing instrument was acknowledged before me thi
day of
by David J. Fischer as Mayor and Jane K. Brown as City Clerk on beh of the Ci
f St. Peter
are personally known to me end who appeared before me at the time of notarl tion.
Oidily 2. De*
MK COMMISSON CCSOW DBMS

iltd, 12,20Di

=MID 11111.1Thei rai INSUROX.

x.

NOTAR
Sign:
Print:
(SEAL)

UC S =te of Florid

•

•

•

PINELLAS COUNTY PLR.
OFF.REC.OK 11212 PS I64S

S
Page

**a.* City of St. Petersburg .1,.**
Special Assessoints Division
FINAL ASSESSMENT ROLL

ORIGINAL
ASSESSMENT

ASSESSMENT
NUMBER

OWNER NAME
/MAILING ADDRESS

PARCEL ID
/LEGAL DESCRIPTION

LCA 1257 47499

DEEPER LIFE CHRISTIAN CNTR

25 31 18 00000 320 1500
BEG 330FT E OF SW COR OF
NW 1/4 OF SW 1/4 TN N 209
FT TH E 40FT TH S 209FT TN

2143 18TH AVE. S

192.42

25 31 16 00000 320 1600
BEG 370FT E 6 40Ft N
OF SW COR OF NW 1/4 OF SW
1/4 RUN N 159.4FT E !OFT S
FL 3360280347

2141 18TH AVE S

232.51

1210 18TH AVE S

424.02

3094 20TH AVE S

234.49

3300 NEBRASKA AVE
TAMPA
LCA 1257 47500

PROPERTY ADDRESS

336036034

DEEPER LIFE CHRISTIAN CNTR
V 1//
1

3300 NEBRASKA AVE
TAMPA
LCA 1257 47501

NATIONAL EXCHANOE'INV INC

4

1523 6TH AVE W STE 514

6

BRADENTON
LCA 1257 47502

vn

FL 342058795

JOHNSON, JESSIE *
C/0 JOHNSON. TRACEY
321 55TH AVE S
SAINT PETERSBURG

FL 337055328

THOMAS. ETHEL 0 .6
JENKINS. ANNE W
920 10TH AVE S

LCA 1257 47504

971 FLORIDA LAND TRUST

LCA 1257 47505

194.63

/•
291,10TH AVEZS

244.52

2703 18TH ST S

304.65

25 31 16 00648 000 0160
ALMA HEIGHTS REV
LOT 18 AND S 100 FT OF LOT
B. NORTH ADD TO GLENW000

FL 338845532

SCOTT. LEROY E.*
SCOTT, LINDA d
430 V 02ND ST
RIVIERA BEACH

-./ 7
26 31 16 00848 000.0070 ,.-920 10TH AVE S
7.."I
ALMA HEIGHTS REV NA
LOT ? d W 8.37 FT OF LOT 6
FL 337052113

PD BOX 15532
TAMPA

(7
26 31(16 00432/003 0120
ALLEN-GAYlSUB.
8LK C. LDT412
I

...7
4, -•,,,
•

LCA 1257 47503

SAINT PETERSBURG

25.21 16 00000 430 0100
13E41,120FT W OF NE COR
OF.S11,1/4 OP SE 1/4 RUN V
95FThS 269F1 E 25FT TH N

FL 334043722

36 31 16 01152 000 0130
ANNHURST
LOT 13
TOWN APTS NO. 2 CONDO

0219XIIRAXSEXIDXXXXXXXXX18801EILX2GX
108211181.1819119XXXXXXXXX2110917:18X
SINXIRAXIIEMINCXXXXXXX7S8018ZIOX

9:1833191191E11111XXXXXXXXXS98011873181

SAS80.2R

APPENDIX E
- St. Petersburg Code Compliance Assistance Department Enforcement Steps
flowchart printed from website on the bottom of the document.

10/25/2020

Enforcement Steps - St. Petersburg

Enforcement Steps

Complaint Filed

Initial Inspection

Codes Compliance
Assistance Department
Enforcement Steps
727-893-7373

Violation Notice

Re-Inspection
Violation(s) Observed?

Case Closed

Legal Action

Code Enforcement Board
Legal Action

CEB Notice of
Hearing

CEB Evidentiary
Hearing
Re-Inspection
Violation Obsery

Special Magistrate
Hearing

Abatement

Civil Citation
Legal Action

Ordinance Legal
Action

The Wowing violations may be
abated by the Cty and the cost
of the work charged against the
property sr the form of a Special
Assessment Lien

Civil Citation fine
issued to Owner or
Occupant
From $40 to $500
per citation

MOV Affidavit
Prepared

Overgrowth
Unsecured Vacant Structures
Bees
Outdoor Storage on Vacant Lots
Hazardous Trees

Close Case

Liens may be certified for
noncompliance up to $500
per day

https://www.stpete.org/oode_enforcement/enforcement actions/enforeement_steps.php

MOV Referred to
Legal

MOV Served
Failure to Appear
If violator (a.k.a.
Defendant) fails to
appear Warrant for
Arrest may be set by
the Court

A

Arraignment Date

I

Court Trial
With a Guilty plea,
Nolo Contendre
Plea, or if found
Guilty. fines can
range from $63 to
$568 per citation

1/2

APPENDIX F

- Proposed Order Ruling on 3 Plaintiffs Motion that was heard on September 20,
2018. It was mailed to the Defendants on September 24, 2018.
- Proposed Order with cover letter that was sent to Judge Jack Day. It was mailed
to the Defendants on September 28, 2018.
- Fla 6th Judicial Circuit Court Order on 3 Plaintiffs Motions and 1 Defendants'
Motion signed by Judge Jack Day on September 27, 2018.

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CITY OF ST. PETERSBURG, a political subdivision
of the State of Florida,
Plaintiff,

CASE NO.: 18-5043-CI

v.
LEROY E. SCOTT; LINDA J. SCOTT; and ALLIANCE MORTGAGE COMPANY,
Defendants.
ORDER GRANTING PLAINTIFF'S MOTION TO STRIKE JURY TRIAL DEMAND,
MOTION TO DISMISS COUNTERCLAIM, AND
MOTION TO STRIKE AFFIRMATIVE DEFENSES
THIS CAUSE came before the Court on Plaintiffs Motion to Strike Defendants'
Demand for Jury Trial, Plaintiffs Motion to Dismiss Defendants' Counterclaim, and Plaintiffs
Motion to Strike Defendants' Affirmative Defenses, and the Court having reviewed the file and
being otherwise fully advised in the premises, it is hereby
ORDERED AND ADJUDGED:
Plaintiffs Motion to Strike Defendants' Demand for Jury Trial is hereby GRANTED.
Plaintiffs Motion to Dismiss Defendants' Counterclaim is hereby GRANTED without
prejudice as to all counts. Defendants shall have ten (10) days to file an amended
counterclaim if so desired.
Plaintiffs Motion to Strike Defendants' Affirmative Defenses is hereby DENIED.

DONE AND ORDERED in Pinellas County, Florida this

Circuit Court Judge
Copies to all parties on attached service list

day of

, 2018.

SERVICE LIST
MATTHEW D. WEIDNER, ESQ.,
WEIDNER LAW, P.A.
250 MIRROR LAKE DRIVE NORTH,
ST. PETERSBURG, FLORIDA 33701
SERVICEAMATTWEIDNERLAW.COM
ALLIANCE MORTGAGE COMPANY
C/I TIAA BANK HOME LANDING
301 W BAY STREET, 251H FLOOR
JACKSONVILLE, FL 32202
LEROY E. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404
LINDA J. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404

cc
WEIDNER
September 27, 2018
I
I'

Honorable Jack Day
501 First Avenue North, Room 200
St. Petersburg, FL 33701
RE:

Leroy E. Scott, et al. Robert Drummond
Case Number: 17-5043-C1

Dear Judge Day:
Enclosed, please find a proposed Order Granting Plaintiff,s Motion to Strike Jury Trial Demand,
Motion to Dismiss CountertClaiin and MotiOn to Strike Affirmative Defenses. If the proposed
Order does not accurately reflect your rulings at the September 20th hearing in this matter, please
advise.
Thank you for your time in this matter.
Respectfully,

Matthew D. Weidner, Esquire

MDW/mlp
Enclosures
cc:

Leroy and Linda Scott

ebir

1
..?/01 ; 727-954-8752,i wwv,...veldne7100i.c:Oro

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CITY OF ST. PETERSBURG, a political subdivision
of the State of Florida,
Plaintiff,

CASE NO.: 18-5043-CI

v.
LEROY E. SCOTT; LINDA J. SCOTT; and ALLIANCE MORTGAGE COMPANY,
Defendants.
ORDER GRANTING PLAINTIFF'S MOTION TO STRIKE JURY TRIAL DEMAND,
MOTION TO DISMISS COUNTERCLAIM, AND
MOTION TO STRIKE AFFIRMATIVE DEFENSES
THIS CAUSE came before the Court on Plaintiff's Motion to Strike Defendants'
Demand for Jury Trial, Plaintiff's Motion to Dismiss Defendants' Counterclaim, and Plaintiffs
Motion to Strike Defendants' Affirmative Defenses, and the Court having reviewed the file and
being otherwise fully advised in the premises, it is hereby
ORDERED AND ADJUDGED:
Plaintiff's Motion to Strike Defendants' Demand for Jury Trial is hereby GRANTED.
Plaintiff's Motion to Dismiss Defendants' Counterclaim is hereby GRANTED without
prejudice to assert those same claims as Affirmative Defenses.
Plaintiff's Motion to Strike Defendants' Affirmative Defenses is hereby DENIED.
Defendant's Motion to Dismiss is DENIED. Defendant shall have 20 days from the date
of this Order to file their response to the complaint.
DONE AND ORDERED in Pinellas County, Florida this

day of

, 2018.

18-005043-61-947/204-844045-PM----Circuit Court Judge
Copies to all parties on attached service list

***CI CfsT0t-1uir.it I 'v cii Cn n /017 /nn., o n•ei

VCAI DI 1017C ni coy t\ 'TUC nioni 11'T r•f11 10T 011%1C1 1 A 0 r•f^il IAITV***

SERVICE LIST
MATTHEW D. WEIDNER, ESQ.,
WEIDNER LAW, P.A.
250 MIRROR LAKE DRIVE NORTH,
ST. PETERSBURG, FLORIDA 33701
SERVICE@MATTWEIDNERLAW.COM
ALLIANCE MORTGAGE COMPANY
C/I TIAA BANK HOME LANDING
301 W BAY STREET, 25TH FLOOR
JACKSONVILLE, FL 32202
LEROY E. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404
LINDA J. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404

APPENDIX G

- Order Denying Defendant's Motion to Disqualify Judge and Scheduling Rehearing
on Motion to Dismiss.

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
OF THE STATE OF FLORIDA IN AND FOR PINELLAS COUNTY
CIVIL DIVISION CASE NO. 18-005043-CI
CITY OF ST. PETERSBURG, a political
Subdivision of the State of Florida,
Plaintiff,
v.
LEROY E. SCOTT, LINDA J. SCOTT,
And ALLIANCE MORTGAGE COMPANY,
Defendants.

ORDER DENYING DEFENDANT'S MOTION TO DISQUALIFY
JUDGE AND SCHEDULING REHEARING ON MOTION TO DISMISS
THIS CAUSE came before the Court on Defendants' Motion to Disqualify Judge filed on
October 26, 2018, in the above-styled case. Having reviewed the motion, the record, and
applicable law, the Court finds that Plaintiff's motion is legally insufficient and therefore
DENIED. Although legally insufficient as a motion to disqualify, the content of the motion gives
reason to treat it as a motion for reconsideration/rehearing of Defendant's Motion to Dismiss.
Accordingly, there shall be held a rehearing of the Motion to Dismiss on November 9, 2018 at
11:30 a.m.
DONE AND ORDERED in Chambers in St. Petersburg, Pinellas County, Florida, this
day of November, 2018.
Electronically Conformed 11/5/2018

Jack Day, Circuit Judge
Copies to:
Matthew D. Weidner, Esq.
250 Mirror Lake Dr. N.
St. Petersburg, FL 33701
Alliance Mortgage Company
301 W. Bay Street, 25th Floor
Jacksonville, FL 32202
Leroy E. Scott
430 West 32nd Street
Riviera Beach, FL 33404
lescottl@bellsouth.net
Linda J. Scott
430 West 32nd Street
Riviera Beach, FL 33404

suopow uo aapao pasoddoun -

H XlaNacicIV

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CITY. OF ST. PETERSBURG, a' political subdivision
of the State of Florida,
Plaintiff,

CASE NO.: 18-5043-CI

v.
LEROY E. SCOTT; LINDA J. SCOTT; and ALLIANCE MORTGAGE
Defendants.

UNOPPOSED ORDER ON MOTIONS
THIS CAUSE came before the Court on Plaintiff's Motion to Strike Defendants'
Demand for Jury Trial, Plaintiff's Motion to Dismiss Defendants' Counterclaim, and Plaintiffs
Motion to Strike Defendants' Affirmative Defenses, and the Court having reviewed the file and
being otherwise fully advised in the premises, it is hereby
ORDERED AND ADJUDGED:
Each of the several Motions to Dismiss filed by the Scott Defendants are DENIED.
Those matters raised in Defendants Motions to Dismiss that may appropriately be raised
by way of Affirmative Defenses or Counterclaims may be raised by Defendants in their
Amended Answer, Affirmative Defenses and Counterclaim which may be filed no later than 30
days from the date of this Order.
DONE AND ORDERED in Pinellas County, Florida this

q

day of

fall>
Circuit Court Judge
Copies to all parties on attached service list

•1

SERVICE LIST
MATTHEW D. WEIDNER, ESQ.,
WEIDNER LAW, P.A.
250 MIRROR LAKE DRIVE NORTH,
ST. PETERSBURG, FLORIDA 33701
SERVICE@MATTWEIDNERLAW.COM
ALLIANCE MORTGAGE COMPANY
C/I TIAA BANK HOME LANDING
301 W BAY STREET, 25TH FLOOR
JACKSONVILLE, FL 32202
LEROY E. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404
lescottl@bellsouth.net
LINDA J. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404

wam2pnr 'Pula -

I XlaNacItIV

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CITY OF ST. PETERSBURG, A POLITICAL
SUBDIVISION OF CBE STATE OF FLORIDA,
Plaintiff,

Case No.: 18-005043-CI - t ois A• ,

v.

N

LEROY E. SCOTT, LINDA J. SCOTT,
ALLIANCE MORTGAGE COMPANY,

'tekeek
,to

A

,

Defendant(s),

ci

FINAL JUDGMENT
THIS ACTION, was heard before the Court on City of St. Petersburg, a political
subdivision of the State of Florida's Motion for Summary Judgment.
IT IS ADJUDGED that:
Defendant(s) were properly served.
Defendant(s) failed to file any affidavits or evidence which would create a genuine issue
of material fact which would preclude summary judgment. Summary Judgment is undisputed as
a matter of law.
Plaintiff's Motion for Summary Judgment is therefore GRANTED. Plaintiff is entitled
to foreclose the following municipal liens imposed against the property and recorded in the in the
following Book and Page numbers of the Official Records of Pinellas County, Florida:
O.R. Book 11032, Page 2628, O.R. Book 12202, Page 1038, O.R. Book 12251,
Page 600, O.R. Book 12309, Page 124, O.R. Book 12497, Page 1088; O.R. Book
10934, Page 2096; O.R. Book 13491, Page 2466; O.R. Book 15611, Page 2638;
O.R. Book 16794, Page 2536; O.R. Book 16869, Page 2525; O.R. Book 17132,
Page 924; O.R. Book 17422, Page 1919; O.R. Book 17575, Page 1065; O.R.
Book 17806, Page 930; O.R. Book 18294, Page 2618; O.R. Book 18549, Page
437; O.R. Book 18602, Page 873; O.R. Book 18733, Page 2130; O.R. Book
18861, Page 1229; O.R. Book 19000, Page 963; O.R. Book 19045, Page 2281;
O.R. Book 19063, Page 2676; O.R. Book 19323, Page 757; O.R. Book 19541,
Page 1479; O.R. Book 19900, Page 1683; O.R. Book 19963, Page 443; O.R.
Book 19996, Page 1603 and O.R. Book 20037, Page 493.

VALUE OF CLAIM: At the initiation of this action, in accordance with section
28.241(1)(a)2.b., Florida Statutes (effective for actions filed on and after June 1, 2009), Plaintiff
estimated the amount in controversy of the claim to be between $0.00 and $50,000.00. In
accordance with section 28.241(1)(a)2.c., Florida Statutes, the Court identifies the actual value of
the claim to be $31,274.72, as set forth below. For any difference between the estimated amount
in controversy and the actual value of the claim that requires the filing fee to be adjusted, the
Clerk shall adjust the filing fee. In determining whether the filing fee needs to be adjusted, the
following graduated filing fee scale in section 28.241(1)(a)2.d., Florida Statutes, controls:
$400
$905

Value of claim less than or equal to $50,000 with 5 defendants or less
Value of claim greater than $50,000 but less than $250,000 with 5
defendants or less
$1,905 Value of claim $250,000 or greater with 5 defendants or less
If an excess filing fee was paid, the Clerk shall provide a refund of the excess fee. If an
additional filing fee is owed, the Plaintiff shall pay the additional fee at least 24 hours prior to the
judicial sale. If any additional filing fee owed is not paid prior to the judicial sale, the Clerk shalt
cancel the judicial sale without further order of the Court.
The following amounts are due and owed to the Plaintiff for unpaid special assessment
liens:
Total amount due on the lien imposed against the
property:
Title search expenses
Court costs:
Filing fee and associated costs
Service of process costs
Publication for Notice of Sale
Real Foreclose Auction Fee
SUBTOTAL

$ 24,860.72

Attorney's fees
TOTAL SUM

$5,000.00
$31,274.72

$ 250.00
$ 489.00
$ 450.00
$ 155.00
$ 70.00
$26,274.72

The total sum in p
aph 5 shal ear interest from this date forward at the prevailing
statutory interest rate of
% from this date through December 31 of this current year.
Thereafter, on January 1 of each succeeding year until the judgment is paid, the interest rate will
adjust annually in accordance with section 55.03(3), Florida Statutes.
Plaintiff, whose address is do Weidner Law, P.A., 250 Mirror Lake Dr. N., St.
Petersburg, FL 33701, holds a lien for the total sum specified in paragraph 5 herein. The lien of
the Plaintiff is superior in dignity to all rights, titles, interests, or claims of the Defendant(s) and

all persons, corporations, or other entities claiming by, through, or under the Defendant(s), or
any of them and the property will be sold free and clear of all claims of the Defendant(s), with
the exception of any assessments that are superior pursuant to sections 718.116 and 720.3085.
The Plaintiff's lien encumbers the subject property located in Pinellas County, Florida, and
described as:
Lot 13, Annhurst Subn, according to the map or plat thereof as recorded in Plat
Book 22, Page 68, Public Records of Pinellas County, Florida.
Property No. 36-31-16-01152-000-0130
Commonly referred to as 2703 18th St S, St. Petersburg, Fl
If the total sum with interest at the rate described in paragraph 5 and all costs accrued
subsequent to this judgment are not paid, the Clerk of Circuit Court shall sell the subject property
ritty .9p,_ 4-0 t
(date) to the highest bidder for
at public sale on
cash in the following location: I

d

in an online sale at www.pinellas.realforeclose.com, beginning at 10 a.m. on the
prescribed date,

after having first given notice as required by section 45.031, Florida Statutes. Plaintiff must
arrange for publication of notice of sale in accordance with chapters 45 and 702, Florida Statutes.
The Plaintiff must file the original Notice of Sale and Affidavit of Proof of Publication with the
Clerk no later than 24 hours prior to the sale.
The sale date set by the judgment can only be canceled and rescheduled by court order.
Any motion or request to cancel this sale must be served on all parties in conformity with Florida
Rule of Civil Procedure 1.080(a) and must be set for hearing with proper notice. Claiming this
matter is an "emergency" does not avoid this requirement. A violation of any party's due process
rights will subject the movant and/or counsel to sanctions. See jade Winds v. Citibank, 63 So.3d
819 (3d DCA 2011).
Plaintiff shall advance all subsequent required costs of this action. Except for publishing
costs supported by an affidavit, reimbursement or credit for such costs shall be by court order
based upon a written motion and adjudication at a hearing with notice. If a third party bidder is
the purchaser, the third party bidder must pay the documentary stamps attached to the certificate
of title in addition to the bid.
If the Plaintiff incurs additional expenses subsequent to the entry of this final judgment
but prior to the sale date specified in paragraph 8, Plaintiff may, by written motion served on all
parties and adjudication at a hearing with notice, seek to amend this final judgment to include
said additional expenses.
Only the judgment owner will be allowed to credit bid. An assignment of the final
judgment of foreclosure filed with the Clerk of the Circuit Court prior to the public sale will

effectively transfer with it the right to credit bid at the sale. Court approval of the assignment of
the final judgment is not required.
The filing of a Certificate of Sale by the Clerk gives certain property rights to the highest
bidder. In order to assign those rights and have the Certificate of Title issued to a third party, the
highest bidder must file a written conveyance made in accordance with section 689.01 or section
692.01, Florida Statutes, governing real estate transfers. Such conveyance must be filed with the
Clerk prior to the issuance of a Certificate of Title. Neither the Court nor the Clerk will change a
Certificate of Title based upon a conveyance filed after the Certificate of Title has been issued.
On the filing of the Certificate of Title, the Clerk shall distribute the proceeds of the sale,
so far as they are sufficient, by paying: first, all of the Plaintiffs costs; second, documentary
stamps affixed to the Certificate, unless the property is purchased by a third party bidder; third,
Plaintiffs attorneys' fees; fourth, the total sum due to the Plaintiff, less the items paid, plus
interest at the rate prescribed in paragraph 6 from this date to the date of the sale; and by
retaining any remaining amount pending further Order of this Court.
On filing of the Certificate of Sale, Defendant(s) and all persons claiming under or
against Defendant(s) since the filing of the Notice of Lis Pendens shall be foreclosed of all estate
or claim in the property except as provided in the Protecting Tenants at Foreclosure Act of 2009
Pub. L. No. 111-22, 123 Stat. 1660, or as to claims or rights under chapter 718 or chapter 720,
Florida Statutes, if any. On filing of the Certificate of Sale, Defendant's right of redemption as
provided by section 45.0315, Florida Statutes shall be terminated.
The Court finds, based upon the affidavits presented and upon inquiry of counsel for the
Plaintiff, that 14.29 hours were reasonably expended by Plaintiff's counsel and that the hourly
rate of $350.00 is appropriate. PLAINTIFF'S COUNSEL CERTIFIES THAT THE
ATTORNEY FEE AWARDED DOES NOT EXCEED ITS CONTRACT FEE WITH
PLAINTIFF. The Court finds that there are no reduction or enhancement factors for
consideration by the Court pursuant to Florida Patient's Compensation v. Rowe, 427 So. 2d
1145 (Fla. 1985).
IMPORTANT INFORMATION PROVIDED pursuant to section 45.031, Florida
Statutes:
IF THIS PROPERTY IS SOLD AT PUBLIC AUCTION, THERE MAY BE
ADDITIONAL MONEY FROM THE SALE AFTER PAYMENT OF PERSONS WHO ARE
ENTITLED TO BE PAID FROM THE SALE PROCEEDS PURSUANT TO THIS FINAL
JUDGMENT.
IF YOU ARE A SUBORDINATE LIEN HOLDER CLAIMING A RIGHT TO FUNDS
REMAINING AFTER THE SALE, YOU MUST FILE A CLAIM WITH THE CLERK NO
LATER THAN 60 DAYS AFTER THE SALE. IF YOU FAIL TO FILE A CLAIM, YOU WILL
NOT BE ENTITLED TO ANY REMAINING FUNDS.

If the property has qualified for the homestead tax exemption in the most recent approved tax
roll, also include the following three paragraphs:
IF YOU ARE THE PROPERTY OWNER, YOU MAY CLAIM THESE FUNDS
YOURSELF. YOU ARE NOT REQUIRED TO HAVE A LAWYER OR ANY OTHER
REPRESENTATION AND YOU DO NOT HAVE TO ASSIGN YOUR RIGHTS TO
ANYONE ELSE IN ORDER FOR YOU TO CLAIM ANY MONEY TO WHICH YOU ARE
ENTITLED. PLEASE CHECK WITH EITHER THE PINELLAS CLERK OF CIRCUIT
COURT AT 315 COURT STREET, CLEARWATER, FL 33756, (727) 464-7000, OR THE
PASCO CLERK OF CIRCUIT COURT AT 38053 LIVE OAK AVENUE, DADE CITY, FL
33523, (352) 521-4517 OR 7530 UTILE ROAD, NEW PORT RICHEY, FL 34654, (727) 8478176 WITHIN TEN (10) DAYS AFTER THE SALE TO SEE IF THERE IS ADDITIONAL
MONEY FROM THE FORECLOSURE SALE THAT THE CLERK HAS IN THE REGISTRY
OF THE COURT.
IF YOU DECIDE TO SELL YOUR HOME OR HIRE SOMEONE TO HELP YOU CLAIM
THE ADDITIONAL MONEY, YOU SHOULD READ VERY CAREFULLY ALL PAPERS
YOU ARE REQUIRED TO SIGN, ASK SOMEONE ELSE, PREFERABLY AN ATTORNEY
WHO IS NOT RELATED TO THE PERSON OFFERING TO HELP YOU, TO MAKE SURE
THAT YOU UNDERSTAND WHAT YOU ARE SIGNING AND THAT YOU ARE NOT
TRANSFERRING YOUR PROPERTY OR THE EQUITY IN YOUR PROPERTY WITHOUT
THE PROPER INFORMATION.
IF YOU CANNOT AFFORD TO PAY AN ATTORNEY, YOU MAY CONTACT A
LEGAL SERVICES OFFICE, SUCH AS: GULFCOAST LEGAL SERVICES, INC., 314 S.
MISSOURI AVE., SUITE 109, CLEARWATER, FL 33756, (727) 443-0657 / COMMUNITY
LAW PROGRAM, 501 FIRST AVE N., ROOM 519, ST. PETERSBURG, FL 33701, (727) 5827480 / BAY AREA LEGAL SERVICE, INC., 4948 CENTRAL AVE., ST. PETERSBURG, FL
33707, (800) 625-2257 / BAY AREA LEGAL SERVICE, INC., 37718 MERIDIAN AVENUE,
DADE CITY, FL 33532 (800) 625-2257 / BAY AREA LEGAL SERVICE, INC., 8406
MASSACHUSETTS AVE, STE B-2, NEW PORT RICHEY, FL 34653, (800) 625-2257 TO
SEE IF YOU QUALIFY FINANCIALLY FOR THEIR SERVICES. IF THEY CANNOT
ASSIST YOU, THEY MAY BE ABLE TO REFER YOU TO A LOCAL BAR REFERRAL
AGENCY OR SUGGEST ANOTHER OPTION. IF YOU CHOOSE TO CONTACT ONE OF
THESE SERVICES FOR ASSISTANCE, YOU SHOULD DO SO AS SOON AS POSSIBLE
AFTER RECEIPT OF THIS NOTICE.
Upon issuance of the Certificate of Title the new owner/titleholder shall be let into
possession of the property. Because of the provisions of section 83.561, Florida Statutes, the
Clerk shall decline issuance of a Writ of Possession without a Court order. By using the
procedures and forms found in Administrative Order 2015-043 the new owner/titleholder may
obtain such an order.
The Court retains jurisdiction of this action to enter further Orders that are proper,
including without limitation, Orders authorizing writs of possession, an award of attorney's fees,
a supplemental complaint to add an omitted party or remedy other defects post-judgment, to

enter a deficiency judgment (unless otherwise prohibited by applicable law or the parties have
stipulated to a deficiency waiver for a specific party).
DONE AND ORDERED in Pinellas County, Florida, on this

t7

Honorable Thomas M
SERVICE LIST
Matthew Weidner, Esq.,
Weidner law,
250 Mirror Lake Dr. N.,
St. Petersburg, FL 33701
Leroy E. Scott
430 West 32nd Street,
Riviera Beach, FL 33404
lescottl @bellsouth.net
Alliance Mortgage Company
C/O TIAA Bank Home Landing
301 W Bay Street, 25th Floor
Jacksonville, FL 32202

Linda J. Scott
430 West 32nd Street,
Riviera Beach, FL 33404

day of April, 2019.

berger

APPENDIX J

- Order on Defendant's Motion for Rehearing.

IN 1 in, Olt -AT COURT OF THE SIXTH JUDIk.__ IL CIRCUIT
•
•
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CASE NO.: 18-5043-CI
CITY OF ST. PETERSBURG, a political subdivision
of the State of Florida,
Plaintiff,
v.
LEROY E. SCOTT; LINDA J. SCOTT; and ALLIANCE MORTGAGE COMPANY,
Defendants.
ORDER ONDEFENDANT'S MOTION FOR REHEARING
by
THIS MATTER, having come on consideration from the Motion for Rehearing filed
. . -=-1
ra
Defendants, this court having fully considered the Motion said Motion is hereby:
.... - -0
cx
r.::,
"'ii.,

DENIED

.,..,qii'l
GRANTED

./

_

. .

DONE AND ORDERED in chambers on this the

d y May, 200

Hon. Thomas Ramsber

SERVICE LIST
ALLIANCE MORTGAGE COMPANY
C/I TIAA BANK HOME LANDING
301 W BAY STREET, 25TH FLOOR
JACKSONVILLE, FL 32202
LEROY E. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404
LINDA J. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404
MATTHEW WEIDNER
(No envelope, will obtain from docket)

.s.s, ril
c ' ..q
--:::,
-v. ,.: - .

%.$)

4..,
-.:,-.) ci..,
-0 ir,
••• c-g.
. '.3.•
T.:4

A- `A

APPENDIX K

- Order Vacating Foreclosure Sale
- Amended (as to Sale Date) Order Vacating Foreclosure Sale

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIRCUIT CIVIL DIVISION

CASE NO.: 18-5043-CI-19

CITY OF ST. PETERSBURG,
a Political Subdivision of the State of Florida,
Plaintiff,

(fi

VS.

LEROY E. SCOTT, LINDA J. SCOTT, AND
ALLIANCE MORTGAGE COMPANY,
Defendants.
/

ORDER VACATING FORECLOSURE SALE
THIS CAUSE came before the Court May 21, 2019, for hearing upon the Defendant's
Emergency Motion for Reconsideration, Motion to Vacate Order of Summary Final Judgment
and Motion to Cancel the May 22, 2019 Foreclosure Sale, filed on May 16, 2019. The Court
having reviewed said Motion, the Court file, hearing testimony of the parties, and being
otherwise fully advised in the premises, it is thereupon;
ORDERED AND ADJUDGED as follows:
The Defendant's Motion for Re-hearing/Reconsideration is GRANTED.
The Defendant's Motion to Vacate Order of Summary Final Judgment is DENIED.
A re-hearing is scheduled for Monday, June 17, 2019 at 2:30p.m. It is therefore;
ORDERED that the Foreclosure Sale on May 21, 2019, is hereby VACATED.
DONE AND ORDERED at St. Petersburg, Pinellas County, Florida, on May c:31,22- ,
2019.

THOMAS RAMSBE
Circuit Judge
Copies furnished to:
Matthew Weidner, Counsel for Plaintiff, 250 Mirror Lake Drive North, St. Petersburg, FL 33701
Leroy E. and Linda J. Scott, Defendants, 430 W. 32nd Street, Riviera Beach, FL 33404

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIRCUIT CIVIL DIVISION
CITY OF ST. PETERSBURG, •
a Political Subdivision of the State of Florida,
Plaintiff,

CASE NO.: 18-5043-CI-19

vs.

LEROY E. SCOTT, LINDA J. SCOTT, AND
ALLIANCE MORTGAGE COMPANY,
Defendants.
AMENDED
(AS TO SALE DATE)

...i

ri

sioa- crY
CP . ,r1
4.13- "a . .

.'' .1
,.) -1 1

En. • .
=
.,-i....
mti
...c • rn •

4x
..)m

co r. .,,p,
. :art.,
mt. C7 P-

.,7 z
co
,,7.,23,-

."..)
,_

M "iN,

CO

IV • :. T
).1 .

ORDER VACATING FORECLOSURE SALE I , • -....
x-7, . z
THIS CAUSE came before the Court May 21, 2019, for hearing upon the Defendant's
Emergency Motion for Reconsideration, Motion to Vacate Order of Summary Final Judgment
and Motion to Cancel the May 22, 2019 Foreclosure Sale, filed on May 16, 2019. The Court
having reviewed said Motion, the Court file, hearing testimony of the parties, and being
otherwise fully advised in the premises, it is thereupon;
ORDERED AND ADJUDGED as follows:
The Defendant's Motion for Re-hearing/Reconsideration is GRANTED.
The Defendant's Motion to Vacate Order of Summary Final Judgment is DENIED.
A re-hearing is scheduled for Monday, June 17, 2019 at 2:30p.m. It is therefore;
ORDERED that the Foreclosure Sale on May 22, 2019, is hereby VACATED.
DONE AND ORDERED at St. Petersburg, Pinellas County, Florida, on May 24, 2019.

THOMAS RAMSBERG
Circuit Judge
Copies furnished to:
Matthew Weidner, Counsel for Plaintiff, 250 Mirror Lake Drive North, St. Petersburg, FL 33701
Leroy E. and Linda J. Scott, Defendants, 430 W. 32nd Street, Riviera Beach, FL 33404

-k„
.

APPENDIX L
- Order on Defendant's Motion for Rehearing and Plaintiffs Motion for Summary
Judgment.

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CASE NO.: 18-5043-CI
CITY OF ST. PETERSBURG, a political subdivision
of the State of Florida,
Plaintiff,
v.
LEROY E. SCOTT; LINDA J. SCOTT; and ALLIANCE MORTGAGE COMP
grq
Z
Defendants.
ORDER ON DEFENDANT'S MOTION FOR REHEARrNG;Gn
AND PLAINTIFF'S MOTION FOR SUMMARY JUDGMENi5.:
1
)
THIS MA i'ER, having come on consideration at the May 21, 2019, hearing on
Defendant's Motion for Rehearing and Plaintiff's Motion for Summary Judgment, this Court
having fully considered the Motions it is hereby
ORDERED AND ADJUDGED:
Defendant's Motion for Rehearing was previously GRANTED in a separate Order
entered May 8, 2019, ex parte, for the efficient resolution of this matter.
Pursuant to Fla. R. Civ. P. 1.510, affidavits in support of summary judgment must be
filed and served at the time of the motion for summary judgment. The original summary
judgment hearing took place on April 17, 2019. Plaintiff filed its Motion for Summary Judgment
on October 12, 2018, but did not file its various affidavits in support of the same until after the
Motion was filed.
Pursuant to Fla. R. Civ. P. 1.510, affidavits in opposition to summary judgment must be
filed and served no less than five (5) days prior to the date of hearing. Defendant filed his
Affidavit Setting Forth Such Facts and Exhibits on April 17, 2019, the day of the hearing.
The Court will rehear Plaintiff's Motion for Summary Judgment and further finds it
would be equitable and hereby orders that all affidavits filed on or before April 17, 2019, are
hereby deemed to be timely filed for the purpose of the next summ judgment hearing,-to-be-Cer• re1ora
a=5Crprs-N.
c‘
i'1:2)1
DONE AND ORDERED in Pinellas County, Florida, this the

C.

°LITZ; .4C" , 2019.

Hon. Thomas Ramsberger
Circuit Court Judge
Copies furnished to all parties on the attached service list

day of

SERVICE LIST
Alliance Mortgage Company
C/O TIAA Bank Home Landing
301 W Bay Street, 25th Floor
Jacksonville, FL 32202
Leroy E. Scott
430 West 32nd Street
Riviera Beach, FL 33404
lescottlabellsouth.net
Linda J. Scott
430 West 32nd Street
Riviera Beach, FL 33404
lhscottl @bellsouth.net3404
MATTHEW WEIDNER
(No envelope, will obtain from docket)

APPENDIX M

- Order on Defendants' Motion for Rehearing and Resetting Foreclosure Sale.

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, FLORIDA
CIVIL DIVISION
CITY OF ST. PETERSBURG, a political subdivision
of the State of Florida,
Plaintiff,

CASE NO.: 18-5043-CI

v.

LEROY E. SCOTT; LINDA J. SCOTT;
Defendants.
ORDER ON DEFENDANTS' MOTION FOR REHEARING:i ctat
AND RESETTING FORECLOSURE SALE

2:.)5
-0 ,17)
iv
4z-

:1.1

THIS MATTER, having come on consideration from the Motion for Rehearing filed by
Defendants Leroy E. Scott and Linda J. Scott, the court having carefully examined the record,
reviewed all pleadings and after accepting argument from Defendants who personally appeared
and from counsel for Plaintiff and the representative of Plaintiff who personally appeared, it is
hereby
ORDERED AND ADJUDGED as follows:
After a properly noticed hearing, this court entered its Final Judgment foreclosing a series
of municipal liens on 4/17/19. The Defendants timely filed their Motion for Rehearing on
5/01/19. Thereafter this court granted Defendants Motion for Rehearing on 5/1/19 and a separate
Order dated 6/06/19. After this court held a hearing on 6/17/19 to consider the record and all
evidence before the court, this court CONFIRMS the entry of the Final Judgment previously
entered on 4/17/19.
Over objection by Plaintiff and as urged by Defendants, this court carefully examined the
"Affidavit Setting Forth Such Facts And Exhibits As Would Be Admissible in Evidence As
Defendants Summary Judgment Evidence". Plaintiff asserted that the Affidavit should not have
been considered because it was timely submitted pursuant to Fla.R.Civ.Pro. 1.510(c) and because

Defendants failed to designate what evidence this court should rely upon to deny summary
judgment. The court acknowledges that it was submitted on 4/17/19, that it was not in fact timely
submitted and that Defendant did not designate any evidence this court should rely upon in
opposition to summary judgment. See Verizzo v. Bank of New York, 28 So. 3d 976 - Fla: Dist.
Court of Appeals, 2nd Dist. 2010
Plaintiff next asserted that while the document submitted by Defendant was styled as an
"affidavit", the court should not consider the document filed as an affidavit because while it was
signed it was not notarized. The court acknowledges that the "affidavit" was not signed and was
therefore not admissible as evidence in opposition to Summary Judgment. See Knod v. Moore,
805 So. 2d 50 - Fla. 4th 2001(...petitioner's affidavit was not notarized. We conclude that the trial
court was correct in denying indecency for that reason alone..") See also Bifulco v. State Farm,
693 So. 2d 707 - Ha. 4th 1997 (the documents relied upon by the trial court in the instant case
are not in compliance with rule 1.510, thus it was error for the trial judge to have considered and
relied upon them. Therefore, we must and do reverse.)
The Plaintiff next argued that Defendants failed to raise any issues of disputed material
facts because the Defendants failed to timely appeal the liens that were at issue in this case. The
court acknowledges that the failure to appeal the liens at issue in this case precludes this court
from considering many of the issues raised by Defendant in this case. See Kirby v. City of
Archer, 790 So. 2d 1214 - Fla.lst 2001; City of Plantation v. Vermut, 583 So. 2d 393 - Fla. 4th
1991; Miami-Dade County v. Peart, 843 So. 2d 363 - Fla. 3rd 2003; Hardin v. Monroe County,
64 So. 3d 707 Fla. 3rd 2011.
The Foreclosure Sale in this case is reset to occur on
online sale at www.realforeclose.com, beginning at 10:00 a.m.

0) 541—

c)01 , in an

DONE AND ORDERED in Pinellas County, Florida this / 6 day of July, 2019.

14
Honorable Thomas M.
Copies to all parties on attached service list

SERVICE LIST
MATTHEW D. WEIDNER, ESQ.,
WEIDNER LAW, P.A.
250 MIRROR LAKE DRIVE NORTH,
ST. PETERSBURG, FLORIDA 33701
SERVICE@MATTWEIDNER.LAW.COM
ALLIANCE MORTGAGE COMPANY
C/I TIAA BANK HOME LANDING
301 W BAY STREET, 25TH FLOOR
JACKSONVILLE, FL 32202
LEROY E. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404
LINDA J. SCOTT
430 WEST 32ND STREET
RIVIERA BEACH, FL 33404

berger

APPENDIX N

- Order on Appellants' Motion to Supplement the Record

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

September 26, 2019
CASE NO.: 2D19-2758
L.T. No.: 2018CA005043XXCICI
LEROY SCOTT AND LINDA J. SCOTT v.

CITY OF ST. PETERSBURG

Appellant / Petitioner(s),

Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellants' motion to supplement the record is granted to the extent that
Appellants shall make arrangements within three days with the clerk of the circuit court
for the supplementation of the record with the items mentioned in the motion, with the
supplemental record to be filed in this court within twenty-five days from the date of this
order.
Appellants' motion for an extension of time is granted to the extent that
Appellants shall serve the initial brief within thirty-two days of the date of this order.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.

Served:
Matthew D. Weidner, Esq.
Ken Burke, Clerk
ec

Ma Elizabeth Kuenzeli
Clerk

Leroy Scott

Linda J. Scott

